TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Internal Revenue Service’s Federal
                   Financial Management Improvement Act
                  Remediation Plan As of December 31, 2005



                                            March 2006

                              Reference Number: 2006-10-069




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               March 28, 2006


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Internal Revenue Service’s Federal Financial
                                 Management Improvement Act Remediation Plan As of
                                 December 31, 2005 (Audit # 200610011)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Federal
 Financial Management Improvement Act of 1996 (FFMIA)1 remediation plan as of
 December 31, 2005. The overall objective of this review was to identify any instances of and
 reasons for missed intermediate target dates established in the IRS’ FFMIA remediation plan.
 We also evaluated, in general, whether the IRS was meeting its responsibilities in fulfilling the
 intent of the FFMIA. The review was performed to meet our requirement under the FFMIA that
 each Inspector General report to Congress instances and reasons when an agency has not met the
 intermediate target dates established in the remediation plan.

 Synopsis
 From our review of all 38 open remedial actions as of December 31, 2005, we determined no
 intermediate target dates were missed; however, 23 dates were extended. Although the IRS has
 reasonable explanations for the extended dates, these delays could further hinder the IRS’ ability
 to timely resolve the reported issues that cause its noncompliance with the FFMIA.
 Also, each of the 38 open remedial actions had an intermediate target date that extended more
 than 3 years from the initial reporting of the financial weakness. As required, the IRS, through
 the Department of the Treasury, properly obtained Office of Management and Budget
 concurrence to extend its corrective actions beyond the 3-year limitation.



 1
     Pub. L. No. 104-208, 110 Stat. 3009.
                   The Internal Revenue Service’s Federal Financial Management
                    Improvement Act Remediation Plan As of December 31, 2005



Our analysis of individual project resources listed in the December 31, 2005, remediation plan
indicated that timely completion of up to 25 open remedial actions is in jeopardy due to
significant funding shortfalls. These remedial actions relate to computer security enhancements
including application and systems access controls, configuration management, expanded audit
trails, and contingency and disaster recovery planning. The IRS indicated that, as a result of its
funding shortfalls, it plans to completely reevaluate existing target due dates for remedial actions
relating to computer security later in Fiscal Year 2006.
The IRS also indicated that the resources necessary for the continued development of the
Custodial Detail Data Base (CDDB), which is a key financial management project, are not
available beyond Fiscal Year 2006. The IRS currently plans to develop a new action plan to
address future releases of the CDDB by October 1, 2006, pending funding availability at that
time. Finally, the IRS reported that it plans to continue to delay development of future releases
of the Integrated Financial System (IFS)2 due to a lack of funding. The delayed future IFS
releases address longstanding financial weaknesses relating to the IRS’ lack of reliable cost
accounting information and inadequate control over its fixed asset records.
The delays caused by the rescheduling and suspension of needed remediation actions further
hinder the IRS’ ability to timely resolve the reported issues that cause its ongoing noncompliance
with the FFMIA. For example, the CDDB, when fully implemented, is designed to address
longstanding financial weaknesses relating to the IRS’ inability to routinely generate reliable and
timely financial management information. In addition, until the IRS completes its revised plans,
we will be unable to reliably assess the IRS’ progress in resolving many of the significant
findings and recommendations reported in the FFMIA remediation plan.

Recommendation
We made no specific remediation plan recommendations as a result of the analyses performed
during this audit. However, IRS management reviewed a draft of this report and agreed with the
facts and findings presented.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




2
 The IFS serves as the IRS’ core financial management system for its administrative activities. See Appendix IV
for a more detailed description of the IFS and other systems/projects mentioned in this report.
                                                                                                                  2
                       The Internal Revenue Service’s Federal Financial Management
                        Improvement Act Remediation Plan As of December 31, 2005




                                             Table of Contents

Background ............................................................................................................Page 1

Results of Review .................................................................................................Page 2
          Many Intermediate Target Dates Were Extended...........................................Page 2
          Timely Completion of Many Remedial Actions Is Doubtful .........................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 4
          Appendix II – Major Contributors to This Report ..........................................Page 5
          Appendix III – Report Distribution List .........................................................Page 6
          Appendix IV – Financial Management Remedial Action Projects.................Page 7
                      The Internal Revenue Service’s Federal Financial Management
                       Improvement Act Remediation Plan As of December 31, 2005




                                           Background

The Federal Financial Management Improvement Act of 1996 (FFMIA)1 established in statute
certain financial management systems requirements that were already established by Executive
Branch policies. The FFMIA was intended to advance Federal Government financial
management by ensuring Federal management systems can and do provide reliable, consistent
disclosure of financial data. Further, this disclosure should be done on a basis that is uniform
across the Federal Government from year to year, by consistently using professionally accepted
accounting standards. Specifically, FFMIA section (§) 803 (a) requires each agency to
implement and maintain systems that comply substantially with:
      •    Federal Government financial management systems requirements.
      •    Applicable Federal Government accounting standards.
      •    The United States Government Standard General Ledger at the transaction level.
Auditors are required to report on agency compliance with the three stated requirements as part
of financial statement audit reports. Agency heads are required to determine, based on the audit
report and other information, whether their financial management systems comply with the
FFMIA. If the agency’s financial systems do not comply, the agency is required to develop a
remediation plan that describes the resources, remedies, and intermediate target dates for
achieving compliance and file the plans with the Office of Management and Budget. In addition,
FFMIA § 804 (b) requires agency Inspectors General to report to Congress instances and reasons
when an agency has not met the intermediate target dates established in its remediation plan.
In the last several years, the Government Accountability Office has reported numerous financial
management weaknesses in its audits of the Internal Revenue Service’s (IRS) annual financial
statements and related assessments of internal control. Due to these weaknesses, the IRS’
financial management systems have not been in substantial compliance with the requirements of
the FFMIA; consequently, the IRS has been required to prepare and maintain a remediation plan.
This review was performed at the IRS National Headquarters in Washington, D.C., in the office
of the Chief Financial Officer, during the period October 2005 through February 2006. The
audit was conducted in accordance with Government Auditing Standards. Detailed information
on our audit objective, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.




1
    Pub. L. No. 104-208, 110 Stat. 3009.
                                                                                            Page 1
                The Internal Revenue Service’s Federal Financial Management
                 Improvement Act Remediation Plan As of December 31, 2005




                                Results of Review

Many Intermediate Target Dates Were Extended
During Calendar Year 2005, the IRS reported it cancelled 1 and added 67 remedial actions to the
12 open remedial actions listed in its December 31, 2004, remediation plan. The Computer
Security and Custodial Detail Data Base (CDDB) projects accounted for most of these new
remedial actions. The cancelled remedial action related to the monitoring of a project that was
subsequently cancelled, eliminating the need for the remediation action.
Also during Calendar Year 2005, the IRS reported it completed 40 remediation actions, leaving
38 open remedial actions in its December 31, 2005, remediation plan. All of these open actions
were associated with four major financial management projects or issues (see Appendix IV for a
description of each project).
   •   CDDB - 11 remedial actions.
   •   Automated Trust Fund Recovery (ATFR) System – 1 remedial action.
   •   Integrated Financial System (IFS) – 1 remedial action.
   •   Computer Security – 25 remedial actions.
Our review of the 38 open remedial actions indicated that no intermediate target dates were
missed; however, 23 dates were extended. The IRS reported in its remediation plan that
extensions of intermediate target dates were necessary due to the following:
   •   CDDB (six actions extended) – Target dates were revised to reflect experience gained
       during initial project implementation and to allow additional time for developing system
       interfaces.
   •   ATFR System (one action extended) – Target date was revised to allow more time to
       evaluate the effectiveness of the ATFR system.
   •   IFS (one action extended) – An action plan was developed to address future releases
       delayed pending future funding availability.
   •   Computer Security (15 actions extended) – Target dates were revised due to delays in
       completing procedures and training relating to system configuration, system access
       controls, and audit trails, as well as to allow additional time to coordinate actions
       requiring multifunctional input.


                                                                                          Page 2
                 The Internal Revenue Service’s Federal Financial Management
                  Improvement Act Remediation Plan As of December 31, 2005



Although the IRS has reasonable explanations for the extended intermediate target dates, these
delays could further hinder the IRS’ ability to timely resolve the reported issues that cause its
noncompliance with the FFMIA.
Each of the 38 open remedial actions had an intermediate target date that extended more than
3 years from the initial determination that IRS financial management systems were not in
substantial compliance with the FFMIA. As required, the IRS, through the Department of the
Treasury, properly obtained Office of Management and Budget concurrence to extend its
corrective actions beyond the 3-year limitation.
We did not identify any additional recommendations that would have required inclusion in the
IRS’ remediation plan as a result of the Government Accountability Office’s Fiscal Year 2005
financial statement audit.

Timely Completion of Many Remedial Actions Is Doubtful
Our analysis of individual project resources listed in the December 31, 2005, remediation plan
indicated that timely completion of up to 25 open remedial actions is in jeopardy due to
significant funding shortfalls. These remedial actions relate to computer security enhancements
including application and systems access controls, configuration management, expanded audit
trails, and contingency and disaster recovery planning. The IRS indicated that, as a result of its
funding shortfalls, it plans to completely reevaluate existing target due dates for remedial actions
relating to computer security later in Fiscal Year 2006. The IRS reported a projected funding
shortfall of at least $43 million for computer security.
The IRS also indicated that the resources necessary for the continued development of the CDDB,
which is a key financial management project, are not available beyond Fiscal Year 2006. The
IRS currently plans to develop a new action plan to address future releases of the CDDB by
October 1, 2006, pending funding availability at that time. The IRS reported a projected funding
shortfall of $13 million for the CDDB. The IRS also reported that it plans to continue to delay
development of future releases of the IFS due to a lack of funding. The delayed future IFS
releases address longstanding financial weaknesses relating to the IRS’ lack of reliable cost
accounting information and inadequate controls over its fixed asset records.
The delays caused by the rescheduling and suspension of needed remediation actions further
hinder the IRS’ ability to timely resolve the reported issues that cause its ongoing noncompliance
with the FFMIA. For example, the CDDB, when fully implemented, is designed to address
longstanding financial weaknesses relating to the IRS’ inability to routinely generate reliable and
timely financial management information. In addition, until the IRS completes its revised plans,
we will be unable to reliably assess the IRS’ progress in resolving many of the significant
findings and recommendations reported in the FFMIA remediation plan.



                                                                                             Page 3
                      The Internal Revenue Service’s Federal Financial Management
                       Improvement Act Remediation Plan As of December 31, 2005



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to report to Congress, as required by the Federal
Financial Management Improvement Act of 1996 (FFMIA),1 any instances of and reasons for
missed intermediate target dates established in the Internal Revenue Service’s (IRS) FFMIA
remediation plan as of December 31, 2005. We also evaluated, in general, whether the IRS was
meeting its responsibilities in fulfilling the intent of the FFMIA. To accomplish our objective,
we:
I.         Gained an understanding of the requirements of the FFMIA, including Office of
           Management and Budget and Department of the Treasury guidance for compliance with
           the Act.
II.        Determined whether the IRS’ remediation plan was consistent with Government
           Accountability Office recommendations from prior IRS financial audits and related
           financial management reports.
III.       Determined whether 1) the IRS missed any intermediate target dates established in its
           remediation plan, 2) intermediate target dates were extended without sufficient
           documentation to support the revised date, and 3) proper approval was obtained for
           remedial actions extending more than 3 years.
IV.        Determined whether the IRS remediation plan had established resource needs for
           remedial actions and the resources presented were consistent with other IRS
           modernization resource budgets.
V.         Determined whether the IRS had taken adequate corrective actions on prior reported audit
           findings.




1
    Pub. L. No. 104-208, 110 Stat. 3009.
                                                                                             Page 4
                The Internal Revenue Service’s Federal Financial Management
                 Improvement Act Remediation Plan As of December 31, 2005



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Anthony J. Choma, Audit Manager
Philip A. Smith, Lead Auditor
Chinita Coates, Auditor
Rashme Sawhney, Auditor




                                                                                       Page 5
               The Internal Revenue Service’s Federal Financial Management
                Improvement Act Remediation Plan As of December 31, 2005



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Office of Management Controls OS:CFO:AR:M
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Audit Liaison: Chief Financial Officer OS:CFO




                                                                        Page 6
                    The Internal Revenue Service’s Federal Financial Management
                     Improvement Act Remediation Plan As of December 31, 2005



                                                                                                Appendix IV

     Financial Management Remedial Action Projects

The Internal Revenue Service (IRS) has initiated four significant financial management projects
in response to the various material weaknesses identified by the Government Accountability
Office relating to the Federal Financial Management Improvement Act of 1996.1 The IRS
described the functionality of the projects contained in its remediation plan as follows:
Custodial Detail Data Base (CDDB): To more accurately report a single balance due for Trust
Fund Recovery Penalty (TFRP) assessments and determine areas for improvement, the IRS
Chief Financial Officer developed a TFRP database. The TFRP database is the first release of
the Financial Management Information System enhancement to the CDDB that will enable the
IRS to address many of the outstanding financial management recommendations. Full CDDB
functionality will be accomplished in 4 releases over 3 years.
    •   Release I – Unpaid Assessments subledger.
    •   Release II – Master File2 transactions and Electronic Funds Transfer Payment System3
        preposted transactions.
    •   Release III – All other preposted revenue receipt transactions and refund transactions.
    •   Release IV – Frozen Credit subledger and Excise Tax Allocations.
Automated Trust Fund Recovery (ATFR) System: The ATFR system provides the capability
to systematically upload TFRP assessments from the Area Offices and properly cross-references
payments received for assessments made. The ATFR system replaced manual processes for
assessing penalties and cross-referencing payments and will ensure compliance with Government
Accountability Office requirements and accounting standards. The IRS reviewed the revised
TFRP process in December 2005 and identified three areas in which additional actions are
needed to address deficiencies. The IRS is in the process of developing an action plan to address
each of these deficiencies.
Integrated Financial System (IFS): The IFS, when fully implemented, will provide the IRS
with an integrated accounting system to account for and control resources. The first release of
the IFS includes the General Ledger, Accounts Receivable, Accounts Payable, Funds and Cost
Management, and Financial Reporting, as well as Budget Formulation.

1
  Pub. L. No. 104-208, 110 Stat. 3009.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
3
  The IRS system that allows taxpayers to make their Federal tax payments electronically.
                                                                                                            Page 7
                   The Internal Revenue Service’s Federal Financial Management
                    Improvement Act Remediation Plan As of December 31, 2005



Release 2 was to focus on asset management and a software technical and functional upgrade,
including the configuration efforts to allow use of the enhanced features in the cost accounting
and finance modules. Procurement Management was planned for Release 3. All remaining
functionality, with the exception of Travel Management, was planned for Release 4. Travel
Management has been deleted from the functional requirements as a result of the Federal
Government-wide travel system development efforts.
Computer Security: This project addresses internal control deficiencies cited in various audits;
initiates efforts to develop controls implemented at campuses,4 field offices, and post-of-duty
offices to ensure uniformity and consistency; develops appropriate means through which the IRS
can carry out periodic reviews of the effectiveness of policies and procedures, along with means
to address security breaches; updates access control standards to reflect changes in technology
and operating environments; provides computer security training to personnel; and conducts
computer security self-assessment reviews that identify and alleviate vulnerabilities on a
proactive basis.
Based on recent Treasury Inspector General for Tax Administration findings during the review
of the computer security material weakness, the Mission Assurance and Security Services
organization, in partnership with the Chief Information Officer, has developed new program
action plans for the following six issues: (1) Access Controls, (2) Rules of Behavior, (3) Audit
Trails, (4) Training, (5) Process Authorizations (Certifications and Accreditations), and
(6) Disaster Recovery.




4
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 8
